                              FOR OFFICIAL USE ONLY

Subject:      FLRA Use of Government Vehicles

Methodology: This internal review of the FLRA s Regional Offices (4) Use of
Government Vehicles was conducted in compliance with Government auditing
standards. The review commenced on September 3, 2003 and was completed on
November 30, 2003. The Inspector General conducted preliminary research and
review of Federal policies regarding the use of Government vehicles and other modes of
transportation for job related travel and reviewed related documents, primarily provided
by the subject related Regional Offices and the FLRA Administrative Services Division.
This review also included a comparison of the FLRA s use of Government vehicles with
that of the National Labor Relations Board, Equal Employment Opportunity Commission
and the Office of Special Counsels. Interviews were conducted with Regional Directors
from the Regional Offices currently using Government vehicles, office managers and
employees who used Government vehicles to conduct their jobs. In addition, a review of
the subject regional offices travel vouchers was conducted to determine the use and
cost of rental vehicles, personal vehicles and public transportation in addition to the
Government vehicles.

References:

      Federal Property and Administrative Services Act of 1949, as amended

      Interagency Fleet Management Systems (GSA Fleet 101-40)

      Federal Property Management Regulation

Federal Requirements

Owned or leased Government vehicles must be used to perform the Agency s mission,
 as authorized.

Government vehicles may not be used for transportation between an employees
   residence and place of employment unless authorized in writing that such use has
been      determined necessary.

Contractors working for the Agency may use Government vehicles when authorized for
   use for the performance of a contract.

Agencies must establish and enforce suitable penalties against employees who misuse
or authorize the use of Government vehicles for unofficial purposes (employee would be
   subject to suspension for at least one month or up to and including removal by the
      Head of the Agency.
                                FOR OFFICIAL USE ONLY

Government vehicles used by an agency in the performance of investigative, law
   enforcement or intelligence duties, are only subject to compliance with Section C and
I
of the Federal Management Regulation if the Head of the agency determines that
exclusive control is essential for the performance of these duties.

Government employees who use Government vehicles are responsible for protecting
them. They must park or store the vehicle which reasonably protects it from theft or
damage.

Unattended Government vehicles must be locked (exception is when fire regulations
  or other building directives prohibit locking vehicles,)

Government employees who use Government vehicles must comply with all state and
local
jurisdiction traffic laws. Payment for fines are a personal responsibility and will not be
reimbursed.

Government employees who use Government vehicles must pay parking fees while
operating the Government vehicle parking fees (are reimbursable.)

Government employees who use Government vehicles must use safety belts, and
refrain from smoking and/or drinking alcoholic beverages in Government vehicles.

Government employees who drive Government vehicles must use and obtain self
service fuel by using a Government issued fleet charge card (not a Government travel or
purchase or personal charge card) or personal funds.

Data must be provided to GSA within 75 calendar days after the end of the fiscal year
on
Standard Form 82, Agency Report of Motor Vehicle Data.

The GSA and Federal agencies using Government vehicles must keep records of U.S.
Government license plates which will be numbered serially for each executive agency
beginning with 101 and preceded by a letter code that designates the owning agency
(with
the exception of those issued by the District of Columbia which usually issues license
plates with US as a letter code as well as an Inspection verification sticker.

Agency heads can request exemption from displaying U.S. Government license plates if
the Government Vehicle is used for investigations.



                                             2
                               FOR OFFICIAL USE ONLY

Federal Property Management Regulation (FMPR)

The FPMR addresses topics such as:

The required size of leased vehicles is compact, maintenance and care of leased
Government vehicles is the responsibility of the leasing agency. The use of a
government vehicle 12,000 miles per year justifies the leasing of vehicles from GSA;

Civilian Government employees who operate a Government vehicle provided by the
GSA must have a valid state, District of Columbia, or commonwealth operators license
  for the type of vehicle to be operated;

The reporting of accidents must be made to GSA S Fleet Management Center;

Agencies must develop adequate accounting and reporting procedures to ensure
accurate
reporting of inventory, cost and operational data; and

Agencies must submit Standard Form 82, Agency Report of Motor Vehicle Data within
75
days after the end of the fiscal year.

Background Information:

The FLRA Office of the General Counsel Regional Offices are all located in major cities
and have unfair labor practice charge jurisdiction over specific areas in and outside their
metropolitan areas and in other states which may require travel. The Atlanta Regional
Office has jurisdiction over Alabama, Florida, Georgia, Mississippi, South Carolina and
the Virgin Islands. The Boston Regional Office has jurisdiction over Connecticut, Maine,
Massachusetts, New Hampshire, New Jersey, New York, Pennsylvania, Puerto Rico,
Rhode Island and Vermont. The Chicago Regional Office has jurisdiction over Illinois,
Indiana, Iowa, Kentucky, Michigan, Minnesota, North Dakota, Ohio, Tennessee and
Wisconsin. The Dallas Regional Office has jurisdiction over Arkansas, Louisiana, New
Mexico Oklahoma, Texas and Panama (limited.) The Denver Regional Office has
jurisdiction over Arizona, Colorado, Kansas, Missouri, Montana, Nebraska, South
Dakota, Utah and Wyoming. The San Francisco Regional Office has jurisdiction over
Alaska, California, Hawaii, Idaho, Nevada, Oregon, Washington and all land/water areas
west of the continents of North and South America, longitude 90 degrees West (except
coastal islands.) The Washington, D.C. Regional Office has jurisdiction over Delaware,
District of Columbia, Maryland, North Carolina, Virginia, West Virginia and all land/water
areas east of the continents of North and South America to longitude 90 degrees east
except the Virgin Islands and Panama (limited jurisdiction.)


                                             3
                               FOR OFFICIAL USE ONLY

At the onset of this review, four of the seven FLRA regional offices, Boston, Denver,
San Francisco and Washington DC, maintained Government vehicles for the use of
mission related travel. Two of the subject Regional Office Directors stated that having
Government vehicles was necessary to perform their case processing, representation
hearings and training. The third Director stated that having a Government vehicle
provided a convenience for the investigation agents and more timeliness for travel. The
fourth Director realized that his staff rarely used the government vehicle and decided to
cancel its use. Although the Office of the General Counsel Regional Offices conduct
many unfair labor practice charge investigations by telephone, there are a significant
amount of investigations that require the investigation agents to be on site. Most
Federal agencies are located in major cities where there is public transportation,
however, the Department of Defense, the Department of Justice, the Department of
Agriculture and several other Federal agencies have locations outside of the
mainstream. Some areas (approximately within a 150 miles of the Regional Office) may
be easier and more economical to drive to and less expensive and more timely than
using public transportation.

Finding of Facts

- Three FLRA regional offices, Washington, Boston, and Denver currently have a GSA
Government vehicles. At the start of this review, the San Francisco Regional Office also
had a Government vehicle. The information requested from the subject regional offices
by the Inspector General for this review prompted the San Francisco Regional Director
to request the cancellation of the government vehicle at the end of FY 2004 because of
its minimal use.

- The regional offices maintain their own Government vehicle use records which are not
currently forwarded to the Office of General Counsel at Headquarters or to the
Administrative Services Division. The government vehicle records differ for each of the
subject matter regional offices and do not contain standardized information to enhance a
management review. The Regional Offices submit mileage reports to GSA which then
are
provided by GSA to the FLRA Travel Officer of the FLRA Budget and Finance Division.
The FLRA Budget and Finance Division then contacts the subject regional offices office
manager for verification before payment is made to GSA. Although the Budget and
Finance Division s Travel Officer provided the Inspector General copies of the reports
he received from GSA, he could not explain the contents and stated did not review them
for accuracy.

- A September 3, 2003 Inspector General Review of the subject regional offices
position descriptions of Office of the General Counsel investigation agents (attorneys
and labor relation specialists) revealed that a stated requirement of the positions (Factor
8 Physical Demand) was to be available for travel as required. Regional Office

                                             4
                                FOR OFFICIAL USE ONLY

managers position descriptions stated that some travel is required. There was no
stated requirement related to the use of the incumbents personal vehicle, the agency s
provision of a vehicle for these employees nor was there a specific mode of
transportation stated in any of the subject Regional Offices position descriptions.

Neither the FLRA, the Office of the General Counsel or any of the regional offices using
Government vehicles have written policy for the use of Government vehicles and record
keeping.

- While all of the subject regional offices are located in major cities, their geographical
coverage involves some federal agencies which are located in areas where there is no
direct public transportation other than taxicabs (this primarily pertains to Federal military
installations.) Although a lot of cases are processed by telephone, some cases require
on-site case processing.

- The Inspector General review of regional office Government vehicle use statistics
indicated that the Washington Regional office used the Government vehicle the most.
Even though the D.C. area has extensive public transportation, there are some areas
such as Leesburg VA, Dahlgren, MD which can be reached in a timely way only by
vehicle or taxi. Although the Denver Regional office has the most minimal public
transportation nearby, it used the government vehicle the least.

- In addition to having/using a Government vehicle, the subject Regional offices also
used rental vehicles and public transportation for the conduct of duties. Most users in all
three subject Regional offices stated that they could use rental vehicles but commented
that it would take more time and it would be a hassle. The Regional offices did not
maintain specific statistics to analyze the use of rental vehicles (or private vehicles) in
addition to the government vehicle.

- The subject regional offices directors stated they check driving licenses of potential
investigation agents prior to hiring to make sure they are valid. They do not check
official records for driving incidents or police tickets. The validity of licenses are not
checked during employment. None of the current subject regional offices drivers were
tested for drug use prior to being permitted to use the Government vehicle.

- The FLRA has no interagency agreement with GSA for Fleet Management to support
GSA billing for the maintenance and care of leased vehicles. Virtually, all other
Federal Agencies that use Government vehicles have interagency agreements. The
FLRA is not listed on the GSA list of Federal agencies that lease Government vehicles.
The subject regional offices send their maintenance bills to GSA who sends them to the
FLRA Budget & Finance Division for payment.



                                              5
                               FOR OFFICIAL USE ONLY

- The FLRA-UAE contract does not contain any information about employees use of
government vehicles.

- Several subject Regional office employees have unknowingly misused their vehicles,
however, the FLRA has not provided any guidance or specific requirements for its use.
Some examples of questionable use include, taking the Government vehicle home
overnight without documented permission revealed by this review, the use of the
government vehicle to drive to and return from local airports (leaving the vehicle at the
airport during the travel, the use of the government vehicle to drive to and return from
attending local training, and dropping off children at school and grocery shopping on the
way home from a trip.

- Not all gas stations accept the GSA credit card. When the card is rejected, users will
use either their Government travel cards or personal credit cards/money to pay for gas
and are reimbursed by their regional office.

- All Office of the General Counsel investigation agents were notified that travel is an
essential part of the job during the job interview process All of the investigation agents
interviewed during this review stated that they did not smoke or drink alcohol while
driving a government vehicle. All of them had current licenses. Two regional office
investigation agents who were interviewed did not own a vehicle and were frequent
users of their office s Government vehicle. Most regional investigation agents in Boston
and Washington, D.C. preferred not to use their private vehicles for business purposes.
In Denver, the majority of investigation agents preferred to use their own vehicles rather
than their Government vehicle. The majority of investigation agents stated they would
use rental vehicles or local transportation if they did not have a Government vehicle, but
it would be inconvenient and much more time consuming.

- The Federal Travel Regulation Amendment 112, January 2003, has decreased the
mileage reimbursement rates for the use of privately owned vehicles used on official
government travel. These rates are now:
      - 36 cents per mile if no government owned vehicle is available,
      - 28.5 cents per mile if the government owned vehicle is not available, and
      - 10.5 cents per mile if the government owned vehicle is available.

A significant number of the subject investigation agents who used their own vehicles for
local travel did not submit travel vouchers for reimbursement. All those who did file
travel vouchers, adhered to the amended travel regulation noted above.


- The Government vehicle travel records maintained by the Boston, Denver and
Washington Regional Offices were not standardized and were not routinely reviewed by
the Regional Directors nor the Office of General Counsel or Budget and Finance

                                            6
                                FOR OFFICIAL USE ONLY

Division to ensure proper use and payment to GSA and proper reimbursement rates for
privately owned vehicles used for official travel.

- The Inspector General Review of the subject regional offices (including the San
Francisco Regional office) travel vouchers obtained through the National Business
Center in Denver, Co, did not reveal any improper claims or reimbursements for the use
of private vehicles or rental vehicles.

- The subject regional office s building lease rates from GSA include the annual/monthly
parking fee for the Government vehicle in their building location parking lots. The rate
for Boston is approximately $4,500 - 350.00 per month; for Denver $960.00 per
year/$80,00 per month; and for Washington Regional Office, $2460.00 per year/$205per
month.

- While there is no written policy, the subject regional offices have similar internal
procedures regarding signing up for the government vehicle. If more than one
investigation
agent signs up for the Government vehicle for the same day , the agent with the farthest
travel generally gets the vehicle. The other agent will either try to reschedule their travel
or use a rental vehicle or their own vehicle.

- The Government vehicle costs are included in the Office of the General Counsel
allocated regional office travel budget. The use of the government vehicles for travel,
when correlated with case workload, is not significant. However, the fact that
investigations are conducted via telephone as well as onsite is a factor that needs to be
recognized. Also, during the past two years, the Denver and Boston Regional offices
were
given travel required cases by the Washington Regional Office because of their
increased workload and the fact that they had no Regional Director. This caused more
air travel to Washington and less peripheral travel for investigations (more telephone
investigations) for the Boston and Denver Regional offices.




                                              7
                                         FOR OFFICIAL USE ONLY

TRAVEL BUDGETS
                            FY 2000-2003
    BOSTON, DENVER, SAN FRANCISCO & WASHINGTON REGIONAL OFFICES

 REGION                FY 2000                 FY 2001            FY 2002              FY 2003

                       FINAL                   FINAL              FINAL                FINAL
                       OPERATING               OPERATING          OPERATING            OPERATING
                       PLAN                    PLAN               PLAN                 PLAN



 BOSTON                $74,000                 $61,000            $59,000              $56,000

 DENVER                $90,000                 $81,000            $74,000              $75,780

 SAN                   $70,500                 $83,700            $50,000              $57,000
 FRANCISCO

 WASHINGTO             $35,000                 $36,300            $21,000              $16,012
 N


The approximate rates for using a rental vehicle vice a Government vehicle are:

                            Daily Rate (CC)     Weekly Rate(CC)     Daily Rate (MC)     Week ly Rate
                                                                                        (MC)

 San Francisco              $30.00              $183.00             $38.00              $203.00

 Denver                     $44.00              $239.00             $46.00              $270.00

 Washington,                $35.00              $176.00             $36.00              $201.00
 D.C.

 Boston                     $38.00 -56.00***    $220.00             $39.00 -56.00***    $234.00-

 *Atlanta                   $42.00              $264.00             $43.00              $276.00

 *Dallas                    $30.00              $180.00             $32.00              $190.00

 *Chicago                   $32.00              $188.00             $35.00              $198.00


CC: Com pac t Ve hicle
MC : Mid -size d ve hicle

** Denotes Regional offices w/o Government Leased Vehicles. This information was provided by the
National Travel Service and rates are subject to change. Rental Vehicle rates depend on the time of the
year the vehicle is utilized, the duration of the vehicle needed, and the type of vehicle needed. These
rates also include the rental company s insurance and unlimited mileage. Fuel is not included in the
prices.


                                                          8
                                 FOR OFFICIAL USE ONLY

***la rger veh icle


- The GSA charge for Government vehicles is based on the size of the vehicle. All
FLRA current Government vehicles are compact size. Government vehicle
maintenance is done periodically in response to notices sent by the GSA. The Regional
office bills are sent to GSA who then sends the bill to FLRA s Budget and Finance
Division for payment. The office manager is in charge of the maintenance of the vehicle
when notified by GSA. The
office manager also submits the monthly mileage use of the Government vehicle directly
to
the GSA. The office manager also certifies the bills received by the FLRA Budget and
Finance Division from GSA and is responsible for keeping records including checking
travel vouchers for the use of personal vehicles. GSA provides the subject FLRA
regional
offices a new vehicle every 3-4 years. All subject regional office managers were
performing their jobs well.

- The subject regional offices travelers use rental vehicles or public transportation
following
air travel and sometimes use rental vehicles for case processing travel requirements
when the Government vehicle is not available. Some rental vehicle companies transport
travelers to their service center to obtain a rental vehicle but they will not deliver
vehicles to sites (regional office).

See Attachments for Regional Office destinations.

Regional Offices using Government Vehicles:

Based on information provided by the GSA, the following chart shows the actual
expenses paid by the four FLRA Regional offices who leased Government vehicles
during FY 2000 - 2003.
                       Total FY 2000-2003 $$$ Used for Government Vehicles

Regional Office       FY 2000     FY 2001      FY 2002              FY2003**




                                               9
                                    FOR OFFICIAL USE ONLY

 Boston                $2,565.07     $2,634,93         $3,408.72            $1,504.31

 Denver                $2,500,00    $2,449,50          $2,503.97            $1,535.25

 Washington            $2,686,80     $2,841,98         $6,563.00
                                                                            $2,082.75

 San Francisco          $3,157.00     $1,480.68        $1,480.68
                                                                            $2,138.88




 Total                  $10,908.87 $9,417.09         $14, 558.51*           $7,261.19
*includes accident repairs                                                                     **
as of 1 August 2003
Travel, gas, and maintenance, and toll fees are included in the data.
FY 2002 Washington Regional Office Expenses include repairs and towing costs from incidents.


Boston Regional Office

The Boston Regional Office has had government vehicles (initially had 3) since the
onset of FLRA. The Regional Director stated that the Government vehicle was used
strictly for business and that his investigation agents preferred using the Government
vehicle vice rental vehicles but did use rental vehicles or their own vehicles if the
Government vehicle was already signed for. Discussions with Boston Regional Office
investigation agents affirmed that the availability of the Government vehicle on site
added quality to the investigation agents work life and that the majority preferred driving
rather than flying to destinations outside of Boston in the New England area. Through
information provided by National Travel, the Inspector General affirmed that there were
a significant amount of New England destinations that could be reached by driving at
much lower costs than by flying.

- The Boston Regional Office is located in downtown Boston within ½ mile of the Boston
Subway, the MTA, and a commuter rail system. The cost for most subway rides is
$1,00 to $2.00. The Boston Regional Office budgets $3,000,000 for the government
vehicle, however, based on actual use, the cost to maintain the Government vehicle is
between $2,400.00 and $2,500.00 per year. The cost for maintaining a parking space is
included in the monthly rent for the office space. The cost for parking the Government
vehicle is estimated to be between $300 and $350.00 per month

- The Boston Regional Office Government vehicle is a 2001 compact Dodge Stratus
Sedan and is in good condition. Only one Boston Regional Office investigation agent
had a negative opinion about the vehicle (too small). All other users stated that the
vehicle was large enough to hold all of the materials they needed to take with them for
investigations, representation cases, hearings and training. A review of the vehicle by


                                                  10
                                FOR OFFICIAL USE ONLY

the Inspector General affirmed that appropriate information was retained in the glove
compartment, including an accident reporting kit. The Boston Regional Office had no
written policy for using the vehicle but did retain a log in which the travelers registered
their request for the use of the Government vehicle. Neither the Regional Director or
office manager checked the log unless a conflict arose (more than one person
registering for the Government vehicle for the same time). All Boston Regional Office
investigation agents signed in the log at least two weeks before usage. All Boston
Regional Office investigation agents had current drivers licenses.

- For the past 3 years, according to statistics provided by the Boston Regional Office.
the investigation agents have used their Government vehicle 70 times (35 trips) each
year. With a few exceptions, most of the use of the Government vehicle has been for
mission related work outside the Boston metropolitan area such as Lowell, MA, Groton
CT, Pawtucket, RI, Portland ME, W hite River VT, Newport RI, Cape Cod MA. Virtually,
all New England states are small and can be reached within one to three hours by
driving. The increased airport check in time requirement and the small airplanes used
for much of New England travel has diminished the use of air travel by the Boston
Regional Office investigation agents and increased their desire to drive.

- Over the past three years, the Boston Regional Office has used it s Government
vehicle
54 times (27 trips)to drive to/from Gloucester MA, to/from Logan Airport. The individual
involved in this stated that she sometimes left the vehicle at the airport. The Regional
Director supported this usage if it did not interfere with another employee s need of a
vehicle. There is no GSA policy supporting or restraining such use from home to airport
but it is not a prudent way to justify the need for Government vehicle.

- While taxies are available, Boston Regional Office employees rarely use them
because most downtown locations are within walking distance. If taxies are used for
downtown travel, the fare is approximately $5.00-$10.00. Using a taxi to get to a
surrounding area outside the downtown area would be anywhere between $30.00 and
$60.00 one way. The taxi fare to the Logan Airport from the Boston Regional Office is
approximately $20.00 (5.1 miles). The MTA subway is located within ½ mile of the
Boston Regional Office and most rides cost between $1.00 and $2.00. Bus routing is
also available and is slightly higher than the subway costs. There is also a commuter
rail system within ½ mile of the Boston Regional Office with the average round trip fare
of $17.00. The rail system is used by a significant number of Boston Regional Office
employees for commuting to work. The average rental rate for a rental vehicle in Boston
is anywhere from $38.00 $56.00 per day and includes a surcharge of $10.00 for the first




                                             11
                                  FOR OFFICIAL USE ONLY

day.1 Until this past year, there was a vehicle rental service across the street from the
Boston Regional Office. It is no longer there and the nearest is now at Logan Airport
which is 5 miles away.

- Boston Regional Office employees all stated that having a Government vehicle was
convenient and saved time. If the Government travel vehicle was unavailable, Regional
Office investigation agents used either a rental vehicle or their own vehicle for travel.
In FY 2003 several Boston Regional Office employees did not use the Government
vehicle. One individual used it 40 times, one other employee 5 times, and three
employees 1 or 2 times. Three investigation agents and the new Regional Attorney have
not yet used the Government vehicle this year. Part of this reduction in use this past
year is related to the fact that 276 cases were transferred to the Boston Regional Office
from the Washington D.C. Regional Office this past year and several Boston Regional
Office investigation agents had to travel to W ashington, D.C.

- The Boston Regional Office s use of Government vehicle documentation was
incomplete and many forms, signed by users did not include the date of return and
mileage used for all trips. This made it difficult to assess the need and actual use of the
vehicle, the destination and date of return and the mileage involved. As a result of and
during the Inspector General visit, the Regional Director and Office Manager expanded
the statistics they will now be maintaining for the use of the Government vehicle.

- Boston Regional Office investigation agents were not aware of GSA policy for the use
of Government vehicles and have received no training related to usage. Most
investigation agents stated they had obtained most of the information from other more
tenured investigation agents. The FLRA Inspector General provided Boston Regional
Office employees with copies of GSA policy.

- The Boston Regional Office Manager submitted Boston Regional Office Government
vehicle costs on a monthly basis. GSA then sent the related bill to the FLRA Budget and
Finance Division Travel Officer. There was no indication that any FLRA Headquarters
manager Administrative Services Division or Office of General Counsel conducted
periodic reviews of Government vehicle spending.

- The $3000 allocation to the Boston Regional Office for the Government vehicle would
finance approximately 60 individual day vehicle rentals per year for required driving
outside the metropolitan area (1-3 hours driving) . 2 150 taxi rides from the Boston



       1
           All rental vehicle information has been provided by National Travel.

 2/ Does not include vehicle rentals related to air travel to different locations,

                                               12
                              FOR OFFICIAL USE ONLY

Regional Office to or from Logan airport or about 14 week long trips out of town. Local
travel can be walked or achieved by taking the subway (within 2 small blocks) or taxi.




                                           13
                                           FOR OFFICIAL USE ONLY

                                  Major Boston Regional Office Travel

Destination           Approximate Mileage       Renta l Vehic le   Taxi 1    Airfare    Driving Time
                      from BRO

Lowell, MA            31 miles                  $45.00-$55.00      $75.40    N/A        31 minutes
                                                per day

Groton, CT            104 miles                                    $257.40              1 hour,43 minutes


Gloucester,MA         37 miles                                                          41 minutes


Logan A irport        5.1 miles                                    $15.00-              10 minutes
                                                                   25.00

Portland, ME          107 miles                                    $275.60              1 hour, 49 minutes

Portsmouth, NH        65 miles                                     $143.00              1 hour, 6 minutes

New Port, RI          70 miles                                     $182.00              1 hour & 20 minutes


Montrose, NY &        200                                                    *$515.50
Castle Po int         192 (Castle Point)

Cape Cod, MA          88 miles

Jamaica Plain, MA     5 miles                                      $15.00-              11 minutes
                                                                   20.00

Dorchester,MA         5 miles                                      $15.00-              9 minutes
                                                                   20.00

Quincy, MA            8 miles                                      $15.00-              13 minutes
                                                                   20.00

Concord, MA           21 miles                                     $52.00               31 minutes


Kittery,ME            60 miles                                               $302.00    1 hour, 4 minutes
                                                                             1 hour
                                                                             from
                                                                             airport

Machias,ME            320.70                                                 $315.00    6 hours, 14 minutes
                                                                             85 miles
                                                                             from
                                                                             airport

White River Jct, VT   127.63 miles                                           *$699.00



                                           14
                                         FOR OFFICIAL USE ONLY

  Destination          Approximate Mileage      Renta l Vehic le   Taxi 1    Airfare    Driving Time
                       from BRO

  New Haven, CT        136.41miles                                           *$992.50   2 hours, 14 minutes

  Woods Hole, MA       74.66 miles                                           *$279.76   1 hour, 30 minutes

  **Hyde Park, NY      200.78                                                $747.50    3 hours, 45 minutes
                                                                             (two day
                                                                             trip)
Notes: The Boston Regional Office vehicle log does not provide the amount of time the user had the vehicle.
Most of the cities that the attorneys visited did not offer the Government air fare contract. GSA determines if
a contract should be awarded between cities.

Driving distance is based on driving @ 60mph.

If the Boston Regional Office converted its Government rental vehicle allocation to use of rental vehicles
($3,000.) It would pay for approximately 50 days of rental vehicle travel.




                                                       15
                                         FOR OFFICIAL USE ONLY

Denver Regional Office

- The Denver Regional Office has had Government vehicles since its creation. Denver Regional
Office employees have not received specific training or FLRA guidance, however, some oral guidance has
been provided by the Regional Director and the Office Manager.

- All of the Denver Regional Office employees felt that having a Government vehicle was convenient
and supported time efficiency. The Denver Regional Office has had two accidents involving the
Government vehicle many years ago but none lately. One of these accidents was the blowing out of a
window by the wind and did not involve the driver.

- Public transportation in Denver, CO is not as well developed as in other regional areas. Mass
transit is primarily designed for commuters to travel to downtown and involves a light rail transportation
system that focuses on two main directions and parking areas (vice Federal or private sector businesses) in
the suburbs. Travel to Federal locations by bus often involves transfers and requires a 3/4 mile walk from/to
the Denver Regional Office. Denver Regional Office employees rarely use public transportation for
metropolitan trips and prefer to use the Government rental vehicle or their own vehicle for such travel. 3 The
Government vehicle is not used by Denver Regional Office to drive to and from the airport.

- The Denver Regional Office s FY 2003 travel budget was $82, 000.00 which includes $2,500.00 for
maintaining the Government vehicle and $980.00 for parking in the GSA garage.

Taxi fares are $1.80 per mile plus $1.60 for using the taxi. Bus fares vary. Many ULP cases filed with the
Denver Regional Office involve Federal agencies in the metropolitan Denver Area which could be reached by
taxies or buses. Rental vehicles cost from $21.00 to $48.00 a day depending on the size and availability of
the car.

- The Denver Regional Office s Government Vehicle is a l999 Maroon Chrysler Breeze compact vehicle.
Those Denver Investigation Agents who have used it over the past three years complained that it was
always dirty both on the outside and inside. The Inspector General review of the vehicle
affirmed that the vehicle was in good shape but that it did have sand all over the outside and inside
floors and that the glove compartment did not contain the accident paperwork required by GSA. 4 The
Denver Regional Office Government vehicles parked in a GSA parking lot next to the building in




                 Most Denver Regional Investigation Agents do not seek reimbursement when
                 3

          they use their own vehicle for local travel

          3/ The Inspector General suggested that some vehicle cleaning material be kept in the
          vehicle so that users could clean the vehicle up upon return or before using. The GSA
          garage has open areas where wind/snow can blow in and make the vehicle dirty.

                                                      16
                                         FOR OFFICIAL USE ONLY

which the Denver Regional Office is located. The charge for the Government vehicles $80.00 per month
while the parking charge for the Denver Regional Office personnel in the same parking garage location is
$60.00.

- The Denver Regional Office Manager has provided some guidance on the use of Government vehicles to
the individuals who use the vehicle and provides each user with a records book which also contains
information on accident reporting, The Office manager reviews all travel vouchers prior to submission and
requires employees to fill out GSA assignment sheets. There has been no check on the currency of user s
liscenses. No drug testing for drivers has ever been done on Denver Regional Office Government vehicle
users.

- The Denver Regional Office has allocated $2,500.00 for its Government vehicle. According to data
provided by the Denver Regional Office, during FY 2002, the Denver Regional Office used their Government
vehicle 16 times for 8 trips. During FY 2003, the Denver Regional Office has used the Government vehicle
23 times (12 trips). During FY 2003, the Denver Regional Office had 49 unfair labor practice charges and 9
representative cases transferred from W ashington D.C. and 3 unfair labor practice charges transferred from
Atlanta which also required out of town travel.

 - All the Denver Regional Office employees who have used the Government vehicle have, on occasion,
taken the vehicle home overnight to start a trip or finish one and bring the vehicle back to the Denver
Regional Office with oral permission from the Regional Director.5 There were two instances where the
vehicle was take home Friday PM and kept at home by the investigation agent for a Monday departure.
Most of the Denver Government vehicle users fail to check the vehicle before beginning their trip. Most
users make sure the gas tank is filled at least half way and some do have the vehicle washed prior to brining
it back to the office parking space.

- Most of the Denver Regional Office Investigation Agents used the Government vehicle one or two times a
year. One Investigation Agent uses the Government vehicle quite often for local travel because she had no
vehicle and takes a bus to work. Two Investigation Agents stated that they preferred to use their own
vehicle for business travel whether it was local or within a 2 or 3 hour drive. One Denver Investigation Agent
has never used the Government vehicle. The unpredictable, often severe weather and the fact that some of
the locations requiring travel are obscure and/or have very small airports with small planes are also factors
which motivate Denver Regional Office Investigation Agents to use their own vehicles.

Over the last 3 years, travel related to case processing has become less and the use of telephone
investigations has increased.




                 5
                   The Inspector General advised the Regional Director and investigation agents
          that this permission should be documented.

                                                      17
                                                 FOR OFFICIAL USE ONLY

                                          Major Denver Regional Office Travel

 Destination              Approxima te               Renta l Vehic le        Taxi 1   **      Airfare          Dri
                          Mileage                    (see notes)             (one-way)        (round trip)     Tim
                          from DRO

 Rocky Flats                                         $21.00-$48.00 per       $27.89           N/A              22
 Golden, CO               14.61 miles                day
                                                     w/unlimited mileage

 SEC                                                                         $3.92            N/A              4m
 Denver, CO               1.29 miles

 Ft. Carson, CO                                                              $144.98                           1h
                          79.66 miles                                                                          min

 HUD                      1.07 miles                                         $3.52            N/A              3m
 Denver, CO


 Sher idia n, W Y         423.85 miles                                       $764.53          $262.00          6h
                                                                                                               min

 Aurora, CO               16.07 miles                                        $30.52           N/A              22

 Bennett, CO              35.72 miles                                        $65.89           N/A              39

 Lakewood, Denver         7.0 miles                                          $14.20           N/A              12

 Pueblo, CO               114.12 miles                                       $207.10          $202.00          1h
                                                                                                               min

 Greeley, CO              62.97 miles                                        $114.94          N/A              1h
                                                                                                               min

 Colorado Springs,        70.50 miles                                        $128.50          $662.50          1h
 CO                                                                                                            min

 *                                                                           $200.06          $202.00          2h
 Florence, CO             108.37 miles                                                                         min

 C hey enn e, W Y         100.81 miles                                       $183.05          $202.00          1h
                                                                                                               min

Notes:

** Taxi Cab companies in Denver, CO does not offer a flat rate for traveling outside of the city. The
companies cha rge $1.80 per mile plus $1.60 for entering the taxi.
Rental Vehicle Companies prices vary depending on day of the week, availability, etc. Price does not include
12.95%app licable state and local tax, $5.00 per day Government su rcharge or 11.1% tax for airport pick-up.
(Airport pick-up ch arges an a dditional fee for location).


                                                       18
                                                         FOR OFFICIAL USE ONLY

The Den ver Reg iona l Off ice le ase d ve hicle was the leas t us ed R egio nal v ehic le. 5 o ut o f 18 loca tion s we re in
Denver, CO.
*There is not an airport in Florence, CO, therefore the traveler would fly into Pueblo, CO and rent a vehicle to
reach Florence. The air fares are approximate a mounts. The prices reflect fares that are reserved two wee ks
prior to travel. These are not Governme nt contract fees.




                                                                19
                                          FOR OFFICIAL USE ONLY

San Francisco Regional Office

- While providing requested information to the FLRA Inspector General, the San Francisco
Regional Office Director affirmed that the there are only a few Federal agencies in the San
Francisco regional area and that the majority of San Francisco Regional Office travel is by
air. Rather than waiting for the outcome of this report, the San Francisco Regional Director
stated that the San Francisco Regional Office no longer needed a Government vehicle and
he requested that GSA be so informed and that the vehicle be removed effective October 1,
2004. Although the Government vehicle was used 28 times in FY 2000, 18 times in FY
2001, 23 times in FY 2002 it was only used 8 times in FY 2003. The San Francisco
Regional Office Director felt the $2,500.00 allocated for the use of the Government Vehicle
would be better used as an addition to the Regional offices travel funds for air and public
transportation.

- This review affirmed that there are various modes of public transportation available in San
Francisco including buses and light rail service within the city, rail service throughout the Bay
Area, San Mateo County, Palo Alto, and San Jose, bus service within Marin, Sonoma,
Contra Costa and Alameda counties connecting to San Francisco and ferry service between
Larkspur, Sausalito and San Francisco. There are also several rental vehicle agencies
within 5-6 blocks of the Regional office.

- Bus and light rail service within the city of San Francisco costs $1.25. Rail service
throughout the Bay Area begins at $1.15. Transit service throughout San Mateo County
connecting to San Francisco begins at $1.25. Bus service throughout Alameda and Contra
Costa counties connecting to San Francisco begins at $1.50. Bus service within Marin,
Sonoma, San Francisco and Contra Costa counties is at a minimum of $2.00; Ferry service
between Larkspur or Sausalito and San Francisco is $5.50 one way. Taxi service is $2.85
for the first 1/6th mile and $ .45 for each additional 1/5 mile. $ ,45 is charged for each minute
of waiting or time delay. There is also a $2.00 Airport exit surcharge.




                                               20
                                         FOR OFFICIAL USE ONLY

Washington Regional Office

- Although the Washington Regional Office is located downtown, W ashington, D.C. and has
access to public transportation and Washington D.C. Federal Agency locations, a significant
amount of cases (mostly Department of Defense) require onsite processing at locations
which are not easily accessible by public transportation other than taxi cabs. Some specific
examples are are, Dahlgren, Maryland, Federal Aviation Administration, Leesburg, Virginia,
Quantico Virginia, Martinsburg and Falling Waters, W est Virginia, Cherry Point and Camp
Legume, and North Carolina locations. These are examples of areas where it is more time
and cost effective to drive rather than use public transportation or airlines when available.


- At least 75% of the Washington Regional Office s caseload is within the DC metropolitan
area and the Washington Regional Office employees commute to work via Metro or buses.
The Federal travel subsidy, D.C. traffic and high parking fees have eliminated most driving to
work. Several Washington Regional Office Investigation Agents stated that if they drove to
work, they would use their own vehicles for local travel even though it was not required to do
so.

- Metro transportation is available to the Washington Regional Office employees within 2
blocks of the office. The Metro Subway s minimum fare is $1.40 and maximum fare is-----.
The minimum Metro bus fare is $1.20 and the maximum fare can run to --------. Washington
D.C. Taxicabs charge $5.00 per zone. Two rental vehicle facilities, Thrifty and Hertz are
within a block of the Washington Regional Office.

- The Washington Regional Office Government vehicle is a moss green 2000 Dodge
Stratus. The FY 2003 expenditure allocation for this Government vehicle was $6000.00.
Maintenance costs were increased during FY 2002 because of three accidents. Actually, the
Washington Regional Office has had four Government vehicle accidents on March 20, 2003,
August 15, 2002, May 30, 2002 and November 27, 2002 which cost the FLRA $3165.85 for
repairs and related costs. The annual rate for parking the W ashington Regional Office s
Government vehicle is $2460 per year with $205.00 due monthly. A specific parking space
was not assigned for the Washington Regional Office s Government vehicle. No reason was
known other than the price would be higher.

- The Washington Regional Office Government vehicle is parked in its building s parking
area. The Washington Regional Office does not have a specific space which means that the
Government vehicle is not always in the same location and users must find the vehicle in
different locations every time. All other Federal Agencies in the building have designated
parking spaces. The Inspector General review of the vehicle revealed that there were
unreported scratches on the trunk and no accident reporting material in the glove
compartment (probably not replaced after the last accident). Otherwise, the vehicle
appeared to be in good condition.

                                             21
                                         FOR OFFICIAL USE ONLY

- During FY 2000, the Washington Regional Office used their Government vehicle on 121
days (49 trips). During FY 2001, the Government vehicle was used for 91 days for 39 trips
and several maintenance checks. During FY 2002, the Government vehicle was used for 70
days for 28 trips. During FY 2003, the Washington Regional Office used the Government
vehicle 46 times for 23 trips. Travel to North Carolina and West Virginia sites for
representation elections is usually by vehicle vice airplanes because of the equipment
(voting booths, voting materials) required. The representation cases generally involve
three days and usually more than one regional investigation agent. It is also easier to enter
a military base with a Government vehicle than with a personal or rental vehicle.

- The Washington Regional Office has an extensive caseload of unfair labor practice
charges and a larger representation caseload than the other regional offices even though its
geographic jurisdiction is smaller than the other regional offices. Because there has been no
Washington Regional Office Director (or General Counsel) for 1 ½ years until recently, there
is more of a continuing professional employee turnover (currently 3 vacancies), a significant
amount of cases have been transferred from the Washington Regional Office to other
regional offices. This has reduced the Washington Regional Office travel over the past 3
years. Nevertheless, available statistics show that the W ashington Regional Office still used
its government vehicle more than the Denver and Boston Regional Offices.6

- Virtually all Washington Regional Office investigation agents stated that if the Government
vehicle was eliminated, the morale of employees would definitely be negatively affected and
planning and executing travel would be more cumbersome. A majority of them also stated
that it would increase the amount of time required for investigations and thus increase travel
costs. Washington Regional Office tenured investigation agents stated that when they are
traveling out of town they usually inform the other agents and are willing to address cases in
that area. Also, several senior Washington Regional Office investigation agents said that
they expected an increase in Representation and Alternative Dispute Resolution cases
which will require more Washington Regional Office travel. 7

- The Washington Regional Office has no written guidance or procedures for the use of
Government vehicles. The investigation agents stated they took the Government vehicle
home the night before a trip without seeking Regional Director approval. The Inspector
General advised the Director and investigation agents that this was a GSA requirement.


                 6
                   Both the Boston Regional Office and Denver Regional Office handled a
          significant amount of the Washington Regional Office cases over the last year but these
          involved travel to W ashington s geographical areas of jurisdiction which primarily
          involved airlines and rental vehicles or local public transportation.

                 Would be difficult to use public transportation because workshop materials will
                 7

          be necessary and are two much and too heavy to carry.

                                              22
                                           FOR OFFICIAL USE ONLY

While onsite, the FLRA Inspector General provided GSA guidance relating to the proper use
of Government vehicles which has not been previously provided by the Office of the General
Counsel or FLRA Travel Officer.

- According to the new Director and Washington Regional Office staff, their productivity and
positive morale depends heavily on the fact that they have a Government vehicle. They felt
it is especially important for travel to military facilities and parking at non military facilities
which provide parking for Government vehicles. The Washington Regional Office uses its
Government vehicle for travel to W est Virginia. and western areas of Virginia, Maryland and
Delaware, as well as areas on the outskirts of Metropolitan D.C.

- During the past 5 years, the Washington Regional Office Regional Attorney was
responsible for managing the use of Government vehicles. The current W ashington
Regional Attorney has a significant amount of management experience and will oversee
travel and the use of the Government vehicle and its related statistics more closely.

- The Washington Regional Office s Government vehicle was stolen from the front of an
employee s residence in the District of Columbia, The employee had reserved and taken the
vehicle home on November 27, 2001 for an early morning appointment in Baltimore,
Maryland. When the employee saw that the vehicle was gone, he notified the metropolitan
police and Washington Regional Office which contacted the Federal Protective Service. On
December 5, 2001 Takoma Park Maryland Police found the Washington Regional Office s
Government vehicle in Takoma Park, Maryland, the GSA Feet Management retrieved and
towed the vehicle. The vehicle was serviced and repaired by the GSA Fleet Management
and returned to the Washington Regional Office. The fees incurred totaled $1124.85
(includes towing and storage fees). In addition to this, the Washington Regional Office s
Government vehicle was involved in an accident on August 15, 2002. The repairs to the
Government vehicle for this accident totaled $1059.20. During the first 6 months of FY
2002, the Washington Regional Office also had additional fuel surcharges totaling
_________ added to their monthly billings.

- The Washington Regional Office has one employee who does not own a vehicle and must
rely on public transportation and the Government vehicle. While the Government vehicle is
not used every day, or even every week, the Washington Regional Office supervisors and
employees felt having this vehicle available for locations which were not easily accessible
through public transportation was necessary. Most employees interviewed stated that using
a rental vehicle for these locations would be just as helpful if it was not difficult to obtain.
Three new Washington Regional Office employees, who have not yet traveled beyond the
Washington, D.C. area stated that it would make no difference to them using a rental vehicle
vice a Government vehicle as long as it was not inconvenient to obtain it. The Inspector
General affirmed that there were two rental vehicle facilities within a block of the W ashington
Regional Office.


                                                23
                                          FOR OFFICIAL USE ONLY

- During FY 2003, the Washington Regional Office used its Government vehicle for 23 trips.
The Government vehicle was taken home over the weekend (to start the trip or after trip
ended) 9 times. There were 28 trips made in FY 2002 and no indication of the Government
vehicle being taken home over the weekend as in FY 2003. In FY 2001, 39 trips were made
with the Government vehicle which was taken home over the weekend 4 times. Two
Washington Regional Office investigation agents were unaware that they needed permission
to take the government vehicle home. Some investigation agents stated that they would use
their own vehicle if the government vehicle was not available or obtain a rental vehicle
through National Travel. Current Government vehicle users had no policy or guidance
provided to them relating to the use of Government vehicles.

- As previously mentioned because of the large load of representation cases filed with the
Washington Regional Office, it is ususal for two investigation agents to travel together in the
Government vehicle to the subject location. There were no statistics to indicate this
saving of travel money. The Washington Regional Office Manager will ensure that these
statistics will be maintained from this point forward.

- Three current Washington Regional Office investigation agents stated they preferred to
drive rather than fly to some of the jurisdiction locations that were within approximately 250
miles of the Washington Regional Office (such as Norfolk, Virginia, Dover Delaware;
Martinsburg, West Virginia) because of the increased time needed to fly (for airport security
checks), the smallness of airplanes which fly to these locations) and the limited public
transportation in some of these areas. The Washington Regional Office Government vehicle
records indicated that there are times when the investigation agents use the Government
vehicle instead of the Metro in the Washington D,C. area but most investigation agents use
the Metro or taxis for metropolitan travel. There are also occasions when FLRA
Headquarters Office of the General Counsel employees use the Washington Regional Office
Government vehicle. There were no statistics indicating that Washington Regional Office
employees used the Government vehicle to drive to or from Washington area airports.




                                              24
                                          FOR OFFICIAL USE ONLY


Washington Regional Office Travel

Destination               Approximate Mileage from   Renta l Vehic le   Taxi 1    Amtrak   Airfare
                          WRO                                                     (one     (round-trip)
                                                                                  way)

 lndian Head, MD          29.59 miles                $33-47 per day     $73.00    N/A      N/A


 Annapolis, MD            31.09 miles                                   $31.09    N/A      N/A


 Rockville, MD                                                          $25.05    N/A      N/A
                          23.37 miles

 Norfolk, VA              193.78 miles                                  N/A       $96.00   $350.00


 Baltimore, MD            43.16 miles                                   N/A       $28.00   N/A

 Durham, NC               258.17 miles                                  N/A       N/A      206.50


 Quantico, VA             36.36 miles                                   N/A       $44-     N/A
                                                                                  50.00

 *M or ga nto w n , W V   210.92                                        N/A       $60-     N/A
                                                                                  118.00

 *Atlantic City, NJ       179.45 miles                                  N/A       $98.00   412.00


 Bolling AFB, DC          7.79 miles                                    $10.30    N/A      N/A

 Ft. Belvoir, VA          20.41 miles                                   $35.00*   N/A      N/A

 College Park, MD                                                       $17.05    N/A      N/A
                          11.65 miles

 *Goldsboro, NC           278.81 miles                                  N/A       N/A      206.50


 Washington DC            5.56 miles                                    $10.30    N/A      N/A
 (Walter Reed)

 Ft. Meyer, VA            3.97 miles                                    $12.00*   N/A      N/A

 Ft. Detrick              54.50 miles                                   N/A       N/A      N/A




                                         25
                                                   FOR OFFICIAL USE ONLY



 Destination                  Approximate Mileage from            Renta l Vehic le       Taxi 1       Amtrak      Airfare
                              WRO                                                                     (one        (round-trip)
                                                                                                      way)

 Aberdeen, MD                 68.46 miles                                                N/A          $62.00      N/A


 *Leesburg, VA                40.94 miles                                                $70.00*      $9.00-      N/A
                                                                                                      21.00
* Amtrak does not offer a direct route to Morgantown, WV. The closet station is Connellsville,PA which is 40 miles from
Morgantown, WV.
* Amtrak does not offer a direct route to A tlantic City, NJ. The closet station in Philadelphia, PA. The commuter would hav e to
trav el on a com mute r train w hich cos ts $4 .00 o ne w ay.
* Amtrak does not offer a direct route to Goldsboro, NC. Train arrives in Rocky Mount, NC which is 60 miles from Goldsboro.
* Amtrak does not offer a direct route to Lee sburg, VA. Trav eler has two options: 1) Travel to Harpers Fe rry,WV or 2) Travel to
Manassas, VA .; Traveler must catch a taxi from either Ferry, WV or Manassas to get to Leesburg, VA.


Cities in red represent locations in Virginia; VA taxi cab companies were called to obtain prices. Metered cabs were cheaper
compared to DC cabs where the traveler is charged according to zones and interstate prices.

All data was collected from National Travel, Inc. Driving time is based on driving 60 mph and was collected from
www.mapquest.com.
Rental vehicle price does not include $5 per day surcharge or gasoline. There in an unlimited mileage limited for the vehicles.


Washington Regional Office Rental Vehicle Details

Three rental vehicle companies with facilities close to the Washington Regional Office were contacted for
specific comparisons with those provided by National Travel, Inc. National Travel, Inc. prices varied
according to time of year and availability. The same is true for the contacted Washington D.C. rental vehicle
companies. The following prices reflect a two day travel agenda on or about December 3-5, 2003.

Thrifty Vehicle Rental: $41.99 per day w/unlimited mileage and insurance. (Mid-Sized vehicle)                              $36.99
per day w/unlimited mileage and insurance. (Compact vehicle)

Thrifty Vehicle Rental offers pick-up from train stations and hotels.

Hertz Vehicle Rental: $53.00 per day w/unlimited mileage and insurance. (Mid-sized vehicle) $48/00 per
day w/unlimited mileage and insurance. (Compact vehicle)

Enterprise Vehicle Rental: $45.00 per day w/unlimited mileage and insurance. (Mid-sized vehicle) $43.00
per day w/unlimited mileage and insurance. (Compact insurance)




                                                                   26
                                          FOR OFFICIAL USE ONLY


Enterprise Vehicle Rental will match the lowest rate for other vehicle rental companies. The contract number
for Enterprise Vehicle Rental Government Office is G16Y055.

Information From FLRA Regional Offices that do not have Government Vehicles;

Atlanta Regional Office

The Atlanta Regional Office has never had a Government vehicle and its employees generally use their own
vehicles for local travel. Although the Atlanta Regional Office is located near a subway station and bus line,
these are rarely used because the sites to which the employees need to go are not obtainable by these
travel methods in Atlanta. The total trips for case processing for FY 2000 - 2003 was l83. 121 of these trips
were made with rental vehicles while the other 52 were made by air transportation and rental vehicles.
During FY 2003, the Atlanta Regional Office was allocated $62,000.00 for travel and spent only $28,004. In
FY 2002 , the allocation was $62,000.00 and the travel expenditure was $52,711.00. In FY 2001,
$65,000.00 was allocated and $50,122.00 was spent. The allocation for FY 2000 was $55,000.00 and the
expenditures for travel were $52.604.00.

Chicago Regional Office

The Chicago Regional Office has never had a Government vehicle. Public transportation has always been
available in all jurisdiction areas and is readily accessible. Sometimes public transportation is not timely in
the suburbs and the Chicago Regional Office investigation agents prefer to use their own vehicles. There
are 9 employees at the Chicago Regional Office who use their private vehicles for local travel. Rental
vehicles are used approximately 10 times a year, 6 of which are generally used by the Cleveland Office
employees.

Dallas Regional Office

The Dallas Regional Office has never had a Government vehicle. The Dallas Regional Office location and
many of its peripheral travel places in Texas and most of its jurisdiction areas have limited public
transportation. There are even some travel areas which have no airline flights. Virtually all of the Dallas
Regional Office investigation agents use their own vehicles for local travel in the Dallas-Fort Worth area.
The Dallas Regional Office also rents vehicles and has found that even a day rental is less expensive than
taking taxis because of the large distances between areas in the southwest.




                                                       27
                                         FOR OFFICIAL USE ONLY


COMPARISON WITH SIMILAR FEDERAL AGENCIES


National Labor Relations Board

The National Labor Relations Board (NLRB) currently has 60 leased Government vehicles (one at
Headquarters and 59 at the NLRB field offices which cost approximately $200,000.00 (approximately $165 a
month for each field office and 10 cents per mile for each leased vehicle) in FY 2002. Field Office vehicles
are leased through a cost reimbursable interagency agreement with the General Services Administration
Fleet Management System. Like the FLRA, the NLRB uses its Government vehicles for case processing
travel. Daily management of the vehicles is performed by the Office Manager under the supervision of either
the Assistant to the Regional Director or Regional Attorney who reports to the Regional Director. The NLRB
does not require its employees to have a vehicle as a condition of employment.

According to the NLRB Inspector General, 2/3 of the 60 NLRB Government vehicles were driven less than
the minimum miles and the Agency overpaid 100 of the 2ll POV mileage reimbursements.

Equal Employment Opportunity Commission (EEOC)

The EEOC has approximately 2000 employees in its 52 field locations and does use Government vehicles
for case processing travel. The EEO currently leases 61 Government vehicles from GSA. 59 of these
vehicles are at the field offices and 2 are at Headquarters. During the l990s, the EEOC conducted regular
administrative reviews including the review of mileage logs, compliance with applicable regulations, cost of
leasing vs. use analysis which resulted in an overall reduction of Government vehicles in the field. Several
investigations were performed over the last few years by the EEOC Office of the Inspector Generak
pertaining to issues related to inappropriate use of Government vehicles by staff.

The Office of Special Counsel (OSC)

The OSC is a small Federal adjudicatory agency with approximately 106 FTEs. For the past three years, the
OSC has not leased Government vehicles. When mission requirements require travel by a vehicle, the OSC
investigators either rent vehicles or use their own vehicles. Otherwise, they use public transportation,
depending on the location.




                                                      28
                                          FOR OFFICIAL USE ONLY


Conclusion

Over the past three years, the four regional offices that used Government vehicles cost the Office of General
Counsel over $42,000.00. On a yearly basis, from FY 2000 to August, FY 2003, these regional offices spent
the individual amounts listed on page ____. All of the subject Regional Offices felt their travel budget was
sufficient but would need to be increased if telephone investigations were eliminated.

Although all of the subject regional offices maintained some statistics on the use of Government vehicles,
they were not standardized or detailed enough to provide a reliable basis for cost effectiveness. Data related
to the use of rental and privately owned vehicles by investigation agents needs to be available to properly
compare Government vehicle costs to the use of public (and private) transportation. The information
obtained by the Inspector General from the subject regional offices, National Travel, National Business
Center and local rental, taxi, bus and train companies can only be considered approximate.

The basis of the final decision on whether to continue the use of Government vehicles at the Boston,
Denver, and Washington D.C. Regional Offices or decide to use public transportation or rental vehicles
should be based on the lowest cost to Government. However, it is very important for management to
acknowledge that the statistics of the last three years may be lower than what they will be the next few years
because of the fact that the Washington Regional Office had to transfer a significant amount of cases
because of the absence of a Regional Director and Senior Regional Attorney. The Boston Regional Office
and Denver Regional Office also had Washington Regional Office cases, which required travel to the
Washington geographical jurisdiction area, transferred to them. These facts have reduced the usage of the
government vehicles in all three Regional Offices. Another factor which should be considered is the fact that
all three Regional Office s employees felt that having a government vehicle supported timeliness in case
processing, cost benefits in holding hearings8 and dealing with representation cases. Having a government
vehicle also provided convenience to employees which is a human capital asset.

While most subject Regional Office investigation agents stated that having a Government vehicle was a
convenience and supported the timeliness of their case processing and associated travel, most of these
individuals stated that they could adjust to using rental vehicles if the processing of getting such a vehicle
was not time consuming or difficult.




                 Representation case hearings require the transport of a significant amount of
                 8

          material and often involve more than one investigation agent traveling to the designated
          area.


                                                        29
                                          FOR OFFICIAL USE ONLY


Although management and employees from the Denver Regional Office expressed the strong need of a
Government vehicle to conduct their mission, the fact that the Government vehicle was used for only 8 trips
during FY 2002 and 8 trips during FY 2003 does not support the need. However, the fact that there was no
General Counsel and 25 Regional Office vacancies in FY2002 and part of FY 2003, the DHS moritorium and
reactions to the proposed Collins Bill had an influence on case investigations filed and processed. The use
of Government vehicles for local and reasonable driving to and from jurisdictional locations at the Boston,
Denver, and Washington Regional Office provides a convenience and supports timeliness for case
processing hearings and training by the Regional Offices. The Boston and Denver Regional Office statistics
and Inspector General interviews indicated a reduction in the use of Government vehicles over the last three
years and the preference and/or willingness of several employees to use their own vehicles rather than the
government vehicle or a rental vehicle. While the Washington Regional Office used their Government
vehicles the most, it has the best source of public transportation and proximity of rental vehicles. The cost of
having, maintaining and facility parking is more at the Washington Regional Office than at the other two
subject regional offices. The cost for maintaining the Government vehicle at the Washington Regional Office
was exceeding high in FY 2002 because of 3 accidents and the need to repair the vehicle after each
accident..9 Also, at each subject Regional Office there were one or two employee who used the government
vehicle much more than others.

Management must also consider the facts that the Atlanta, Dallas and Chicago Regional Offices do not and
have not had Government vehicles and handle their travel requirements without a negative effect. Also, the
San Francisco Office, having reviewed their statistics of the use of Government vehicle, eliminated its use. It
is also important to consider that similar adjudicatory agencies (EEO and the NLRB) are using government
vehicles for their investigations but the Office of General Counsel uses rental vehicles instead. Another
consideration is the fact that the FLRA Office of General Counsel uses telephone investigations as well as
on-site unfair labor practice charge investigations which has and can considerably affect the need and cost
of Regional Office employee travel if these telephone investigations are eliminated.

The current data maintained by the Boston, Denver and Washington Regional Offices regarding the use of
Government vehicles does not support the expressed need for continuing the leasing of these vehicles.
Although maintaining Government vehicles at the subject Regional Office locations provides convenience
and saves some travel time, the use of rental vehicles, taxies or public transportation is a viable alternative.
The money spent for the leasing, parking and maintenance of government vehicles, could be used for
additional subject Regional Office travel and, perhaps, provide the chance for more onsite investigations.

The majority of unfair labor practice charges for which government vehicles are used by the Denver and
Washington Regional Office are associated with military organizations. Since the Department of Defense
Authorization Act of 2004 was just approved by Congress and provides the Department of Defense the


                 9
                  If there is an accident while using a rental vehicle, if insurance is paid for, the
          rental vehicle company, not the FLRA, would be responsible for fixing damaged
          vehicles,

                                                        30
                                          FOR OFFICIAL USE ONLY


authority to establish a new labor relations and appeals process, this will probably affect (reduce) the
Department of Defense related unfair labor practice charge workload of the FLRA Regional Offices in the
future.

Irregardless of the management decision of whether Government vehicles should be retained or eliminated,
the Office of the General Counsel management should require standardized and more detailed data for the
Regional Office s travel expenses use of Government vehicles as well as other modes of travel
transportation (rental vehicles, taxies and other types of transportation including personal vehicles) for case
processing and other mission related activities so that future decisions can be based on valid, standardized,
cost statistics. If management decides to keep government vehicles, policy should be provided to eliminate
misuse and standardize appropriate data for decision making.

 : The use of Government vehicles by the Boston, Denver and Washington D.C. regional offices provides a
convenience and supports the timeliness of traveling to processes cases, hold hearings and provide training.
It is definitely considered a human capital asset by the employees. Over the last two years the use of the
Government vehicle by the subject offices has diminished significantly. The Boston Regional Office has out
of state jurisdiction areas which are easier and take less time to drive to than take public or air
transportation. The Denver Regional Office is located about a mile from public transportation, has restricted
train and bus service and had the least amount of usage of the government vehicle (majority of employees
preferred to drive their own vehicles which they routinely drove to work.) W hile the Washington Regional
Office has the most usage of the Government vehicle to get to customer locations that are difficult or
expensive to reach by public transportation and/or taxis. and are easier to get to by vehicle driving, it has two
rental vehicle locations within one block of the office. Because of 4 accidents involving the Washington
Regional Office Government vehicle in FY 2002 -2003. Their travel cost was excessive because of
maintenance and repair charges and an expensive parking space charge.

FINDINGS AND RECOMMENDATIONS:

  Finding 1. The use of the Government vehicles by the Boston, Denver, and Washington Regional Office
has diminished over the last three years for various reasons and cost effectiveness is questionable. Public
transportation and/or rental cars are available to all offices .

Recommendation 1. Management should consider eliminating government vehicles from the three subject
regional offices at the end of FY 2004. The subject Regional Office travel budgets should retain the money
and use it for rental vehicles when driving is necessary and/or other modes of public transportation or air
travel. If there are future changes which increase these offices caseload significantly in the future and
management can support the need of a Government vehicle, it could be reinstated.




                                                       31
                                         FOR OFFICIAL USE ONLY


Finding 2. The FLRA does not have internal travel policy and guidance for employees nor does it maintain
standardized statistics to allow the proper budget allocations and monitoring of travel costs for all modes of
transportation in its components and subcomponents..

Recommendation 2a.. Because of the significant amount of travel by some Agency component and
subcompone t employees, appropriate Agency internal travel policy and statistics need to be defined and
maintained by all three components of the Agency to properly assess travel costs and budget travel
allocations.

                     2b. FLRA Budget and Finance Division Travel Officer should semiannually monitor
travel transportation mileage logs and related costs, travel safety and security incidents and related costs
and provide internal semi- annual reports to the Chairman, FLRA, General Counsel, Chairman of FISIP:
and Director of Administrative Law Judges




                                                      32
